APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Federal Circuit
(November 1, 2019). . . . . . . . . . . . App. 1
Appendix B Order Granting Defendants Domino’s
Pizza, LLC and Domino’s Pizza, Inc.’s
Motion for Summary Judgment of
Unpatentability in the United States
District Court Southern District of
California
(September 25, 2018) . . . . . . . . . App. 21
Appendix C Joint Pre-Trial Order in the United
States District Court Southern
District of California
(July 27, 2018). . . . . . . . . . . . . . . App. 40
Exhibit 1: Joint Statement of the
Case . . . . . . . . . . . . . . . . . . . . App. 44
Exhibit 2: Causes of Action to be
Tried. . . . . . . . . . . . . . . . . . . . App. 46
Exhibit 11: Statement of
Stipulated Facts . . . . . . . . . . App. 55
Appendix D Order (1) Resolving Parties’ Joint
Motion for Discovery Dispute,
(2) Resolving Parties’ Joint Motion
Regarding Service of Amended
Infringement Contentions and (3) ReSetting Dates in the United States

ii
District Court Southern District of
California
(October 10, 2013) . . . . . . . . . . . . App. 57
Appendix E Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Federal Circuit
(January 6, 2020) . . . . . . . . . . . . App. 67

App. 1

APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1141, 2019-1144
[Filed November 1, 2019]
______________________________________
AMERANTH, INC.,
)
Plaintiff-Appellant
)
)
v.
)
)
DOMINO’S PIZZA, LLC,
)
DOMINO’S PIZZA, INC.,
)
Defendants-Appellees
)
)
PAPA JOHN’S USA, INC.,
)
OPENTABLE, INC., GRUBHUB, INC., )
SEAMLESS NORTH AMERICA, LLC,
)
O-WEB TECHNOLOGIES LTD.,
)
HOTELS.COM, L.P., STUBHUB, INC., )
TICKETMASTER, LLC, LIVE NATION )
ENTERTAINMENT, INC.,
)
TRAVELOCITY.COM LP, HOTEL
)
TONIGHT, INC., ORBITZ, LLC,
)
EXPEDIA, INC., FANDANGO, INC.,
)
HOTWIRE, INC., KAYAK SOFTWARE )
CORPORATION, EMN8, INC., HILTON )
INTERNATIONAL CO., HILTON
)

App. 2
RESORTS CORPORATION, HILTON
WORLDWIDE, INC., USABLENET,
INC., STARWOOD HOTELS &
RESORTS WORLDWIDE INC., MOBO
SYSTEMS, INC., AGILYSYS, INC.,
ATX INNOVATION, INC., BEST
WESTERN INTERNATIONAL, INC.,
HYATT CORPORATION, ORDR.IN,
INC., NAAMA NETWORKS, INC.,
MARRIOTT HOTEL SERVICES, INC.,
MARRIOTT INTERNATIONAL, INC.,
RITZ CARLTON HOTEL COMPANY,
LLC, RENAISSANCE HOTEL
OPERATING COMPANY, APPLE, INC.,
TICKETBISCUIT, LLC, EVENTBRITE,
INC., TICKETFLY, INC., STARBUCKS
CORPORATION, IPDEV CO., ORACLE
CORPORATION,
Defendants
______________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeals from the United States District Court for
the Southern District of California in Nos. 3:11-cv01810-DMS-WVG, 3:12-cv-00733-DMS-WVG, Judge
Dana M. Sabraw.
______________________
Decided: November 1, 2019
______________________
RICHARD CHARLES WEINBLATT, Stamoulis &
Weinblatt LLC, Wilmington, DE, argued for plaintiffappellant.
FRANK A. ANGILERI, Brooks Kushman PC,
Southfield, MI, argued for defendants-appellees. Also

App. 3
represented by THOMAS W. CUNNINGHAM, JOHN P.
RONDINI.
______________________
Before PROST, Chief Judge, PLAGER and DYK,
Circuit Judges.
DYK, Circuit Judge.
Ameranth, Inc. (“Ameranth”) sued Domino’s Pizza,
LLC and Domino’s Pizza, Inc. (together, “Domino’s”) for
infringement of various claims of U.S. Patent No.
8,146,077 (“the ’077 patent”). The district court entered
judgment that claims 1, 4–9, 11, and 13–18 of the ’077
patent are patent ineligible under 35 U.S.C. § 101. We
affirm as to claims 1, 6–9, 11, and 13–18, but hold that
the district court lacked declaratory judgment
jurisdiction as to claims 4 and 5.
BACKGROUND
Beginning in 2011, Ameranth filed numerous
actions against companies in the hospitality industry
for infringement of various patents covering
communications systems for generating and
transmitting menus. Ameranth asserted various claims
of the ’077 patent and U.S. Patent Nos. 6,384,850 (“the
’850 patent”), 6,871,325 (“the ’325 patent”), and
6,982,733 (“the ’733 patent”).
The district court consolidated the actions for
pretrial purposes including discovery and claim
construction. Ameranth’s complaint against Domino’s
asserted infringement of the ’077, ’850, ’325, and ’733
patents. Domino’s filed counterclaims asserting that

App. 4
the ’077, ’850, ’325, and ’733 patents are patent
ineligible under § 101.
Various defendants challenged Ameranth’s patents
before the Patent Trial and Appeal Board (“Board”) in
Covered Business Method proceedings. In Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1245 (Fed. Cir. 2016),
this court held that claims of the ’850, ’325, and ’733
patents on appeal from the Board’s decision are patent
ineligible. By early 2017, those three patents were no
longer at issue in the consolidated district court
proceeding, and only infringement of the related ’077
patent remained.
Domino’s was among the various defendants
accused of infringement in the district court actions. In
June 2018, defendants Pizza Hut, Inc. and Pizza Hut of
America, Inc. (together, “Pizza Hut”) filed a motion for
summary judgment of unpatentability under § 101 with
respect to the ’077 patent. Ameranth and Pizza Hut
settled, and Domino’s requested permission in effect to
substitute itself for Pizza Hut to pursue the motion.
That request was granted.
On September 25, 2018, the district court granted
the motion for summary judgment of unpatentability,
finding that “the asserted claims of the [’]077 Patent
are unpatentable under § 101.” J.A. 15. The district
then entered final judgment in the action against
Domino’s and adjudicated that “all asserted claims of
the ’077 Patent (claims 1, 4–9, 11, 13–18) are patent
ineligible under Section 101.” J.A. 1–2.
Ameranth appeals. We have jurisdiction under 28
U.S.C. § 1295(a)(1).

App. 5
We review a district court’s grant of summary
judgment without deference. A district court’s decision
on patent eligibility is reviewed de novo except that its
factual determinations are reviewed for clear error.
Berkheimer v. HP Inc., 881 F.3d 1360, 1365, 1368 (Fed.
Cir. 2018).
With respect to jurisdiction, we review de novo
whether a case or controversy exists and apply Federal
Circuit law. Sanofi-Aventis U.S., LLC v. Dr. Reddy’s
Labs., Inc., 933 F.3d 1367, 1372 (Fed. Cir. 2019).
DISCUSSION
I. Jurisdiction
Ameranth contends that it asserted only claims 1,
6, 9, 13, and 17 against Domino’s and thus the district
court’s order invalidating nine other claims (i.e., claims
4–5, 7–8, 11, 14–16, and 18) should be vacated for lack
of declaratory judgment jurisdiction.
Article III courts have subject matter jurisdiction
only if there is an actual case or controversy. See
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118,
126–27 (2007). “[T]he existence of a case or controversy
must be evaluated on a claim-by-claim basis” in patent
cases. Fox Grp., Inc. v. Cree, Inc., 700 F.3d 1300, 1307
(Fed. Cir. 2012) (quoting Jervis B. Webb Co. v. So. Sys.,
Inc., 742 F.2d 1388, 1399 (Fed. Cir. 1984)).
“[J]urisdiction must exist ‘at all stages of review, not
merely at the time the complaint [was] filed,’” Streck,
Inc. v. Research & Diagnostic Sys., Inc., 665 F.3d 1269,
1282 (Fed. Cir. 2012) (second alteration in original)
(quoting Benitec Austl., Ltd. v. Nucleonics, Inc., 495
F.3d 1340, 1343 (Fed. Cir. 2007)), and “a

App. 6
counterclaimant must show a continuing case or
controversy with respect to withdrawn or otherwise
unasserted claims,” id. at 1283. All of the
circumstances are considered in determining the
existence of a case or controversy. See MedImmune, 549
U.S. at 127.
Ameranth does not dispute the existence of a case or
controversy for claims 1, 6, 9, 13, and 17. But
Ameranth argues that the district court was without
power to determine the patent eligibility of claims 4–5,
7–8, 11, 14–16, and 18 of the ’077 patent because there
was no case or controversy with respect to those claims.
We first address the latter seven claims (claims 7–8,
11, 14–16, and 18).
In its infringement contentions, Ameranth accused
Domino’s of infringing various claims of the ’077 patent
including the seven claims. Ameranth attached to the
complaint, its Disclosure of Asserted Claims and
Infringement, including allegations that “Domino’s
Ordering System infringes at least . . . claims 1, 3, 6, 7,
8, 9, 11, 12, 13, 15, 16, 17, and 18 of the [’]077 patent.”
J.A. 12425–26. Domino’s then pled counterclaims
seeking a declaratory judgment that the claims were
unpatentable under § 101. Despite the broad language
of the complaint, the district court ordered Ameranth
to “select no more than five (5) claims from each patent
to assert” and that it “may assert additional claims at
this time only with leave of Court.” J.A. 2192; In re:
Ameranth Patent Litig. Cases (“In re Ameranth”), No.
3:11-cv-01810 (S.D. Cal. 2012), ECF 623 at 2. The
district court also required Ameranth’s infringement
contentions to “consist of one representative version of

App. 7
each Defendant’s accused system for the five selected
claims.” J.A. 2192.
As a result, Ameranth amended its disclosure of
asserted claims: it listed claims 6–8, 14, and 18 in its
November 15, 2013 disclosure; and claims 1, 6, 9, 13,
and 17 in its July 5 and August 7, 2017 disclosures. In
re Ameranth, ECF 1217-5 at 1, 1217-6 at 1; J.A. 2196.
Thus, Ameranth did not list claims other than 1, 6, 9,
13, and 17 in its latest amended disclosure of asserted
claims. In the amendments, Ameranth stated that the
selection was due to the district court’s order and
alleged that “Domino’s infringes at least the [listed five
claims of the ’077 patent]” and it “reserves the right to
assert additional and/or different claims in the future
by Court order.” In re Ameranth, ECF 1217-5 at 1–2,
1217-6 at 1; J.A. 2196. There was no indication that
Ameranth altered its position that Domino’s Ordering
System infringes claims 7–8, 11, 14–16, and 18.
The fact that Ameranth did not include certain
claims which it originally accused of infringement in
the amended disclosure of asserted claims does not
mean that a case or controversy with respect to those
claims disappeared. An actual suit affirmatively
asserting the claims is not a requirement for an Article
III case or controversy. Cardinal Chem. Co. v. Morton
Int’l, Inc., 508 U.S. 83, 95 (1993) (“In patent litigation,
a party may satisfy th[e] burden, and seek a
declaratory judgment, even if the patentee has not filed
an infringement action.”). The Supreme Court in
MedImmune has also held that even a “reasonable
apprehension of suit” is not a requirement for Article
III jurisdiction. 549 U.S. at 132 n.11; see also Asia Vital

App. 8
Components Co. v. Asetek Danmark A/S, 837 F.3d
1249, 1252 n.1 (Fed. Cir. 2016) (recognizing that a
“reasonable apprehension of imminent suit” is no
longer a prerequisite although it may be a factor that
can satisfy Article III controversy).
Ameranth’s original accusation that Domino’s
infringed claims 7–8, 11, 14–16, and 18 created a case
or controversy. See Cardinal Chem., 508 U.S. at
99–100. “A company once charged with infringement
must remain concerned about the risk of similar
charges if it develops and markets similar products in
the future.” Id. “Merely the desire to avoid the threat
of a ‘scarecrow’ patent, in Learned Hand’s phrase, may
[] be sufficient to establish jurisdiction under the
Declaratory Judgment Act.” Id. at 96.
Under our case law, the original case or controversy
could cease if the patentee withdrew its claims of
infringement. See Streck, Inc. v. Research & Diagnostic
Sys., Inc., 665 F.3d 1269, 1276, 1284 (Fed. Cir. 2012)
(patentee eliminated claims in its infringement
contentions that included information on “[e]ach claim
of each patent in suit that is allegedly infringed” by the
opposing party (alteration in original)); Fox Grp., Inc.
v. Cree, Inc., 700 F.3d 1300, 1308 (Fed. Cir. 2012)
(patentee withdrew its assertion of certain claims).
Unlike Streck and Fox, there is no indication that
Ameranth here withdrew its accusations of alleged
infringement of claims 7–8, 11, 14–16, and 18.
Ameranth limited its claims here only because it was
compelled to limit the claims by order of the district
court. Eliminating claims 7–8, 11, 14–16, and 18 from
the amended disclosure of asserted claims did not

App. 9
eliminate the case or controversy with respect to those
claims.
This case is similar to Voter Verified, Inc. v. Premier
Election Solutions, Inc., 698 F.3d 1374 (Fed. Cir. 2012).
In Voter Verified, the patentee alleged in its complaint
infringement of every claim of the asserted patent but
“later pared back its infringement contentions” with
the “caveat that discovery might dictate reintroducing
‘other claims in the patents in suit.’” Id. at 1382. This
court held that the defendants “kept any ‘unasserted’
claims before the district court by maintaining their
respective counterclaims” and thus the district court
had jurisdiction to rule on the validity of those claims.
Id. This is consistent with the Declaratory Judgment
Act, which allows a defendant to “counterclaim for a
declaration of invalidity and noninfringement . . . [so
that] the defendant is protected against the possibility
that the [rights holder] will dismiss the suit or that the
infringement action will not resolve all of the issues
between the parties.” Green Edge Enters., LLC v.
Rubber Mulch Etc., LLC, 620 F.3d 1287, 1300–01 (Fed.
Cir. 2010) (quoting 10B Charles Alan Wright, Arthur
R. Miller & Mary Kay Kane, Federal Practice and
Procedure § 2761 (3d ed. 1998 & Supp. 2010)). In
summary, a case or controversy existed with respect to
claims 7–8, 11, 14–16, and 18.
The remaining claims found to be patent ineligible
by the district court are claims 4 and 5. In its
infringement contentions, Ameranth did not accuse
Domino’s of infringing claims 4 and 5 while it noticed
other claims discussed above. Domino’s conceded
during oral argument that there was no case or

App. 10
controversy with respect to claims 4 and 5.1 We
therefore conclude that the district court did not have
jurisdiction to determine the patent eligibility of claims
4 and 5 of the ’077 patent.
II. Notice
Ameranth contends that even if there was a case or
controversy with respect to claims 4–5, 7–8, 11, 14–16,
and 18, it did not receive notice that those claims would
be subject to the summary judgment motion or ruling.
Ameranth points out that Pizza Hut originally filed
a motion for summary judgment of unpatentability
with respect to only claims 1, 6, 8, 13, and 17. But
under Rule 56 of the Federal Rules of Civil Procedure,
a district court has power to enter summary judgments
sua sponte. Fed. R. Civ. P. 56(f); see also Int’l Visual
Corp. v. Crown Metal Mfg. Co., 991 F.2d 768, 770 (Fed.
Cir. 1993) (citing Celotex Corp. v. Catrett, 477 U.S. 317,
326 (1986)). For such judgments to be proper, generally
the losing party should be on notice so that it has an
opportunity to present evidence. See Fed. R. Civ. P.
56(f); Int’l Visual, 991 F.2d at 770; OSRAM Sylvania,
Inc. v. Am. Induction Techs., Inc., 701 F.3d 698, 709
(Fed. Cir. 2012) (citing Portland Retail Druggists Ass’n
v. Kaiser Found. Health Plan, 662 F.2d 641, 645 (9th
Cir. 1981)).

1

During oral argument, Domino’s included claim 14 in the list of
claims not originally asserted, but, as discussed above, the record
shows that Ameranth affirmatively asserted claim 14 in its
November 15, 2013, amended disclosure.

App. 11
Ninth Circuit law, which governs here, recognizes
situations where a district court may enter summary
judgment against a party even without notice if the
party had a “full and fair opportunity to ventilate the
issues.” See Arce v. Douglas, 793 F.3d 968, 976 (9th Cir.
2015) (quoting United States v. Grayson, 879 F.2d 620,
625 (9th Cir. 1989)). In Grayson, for example, the
district court ruled beyond the government’s summary
judgment motion and dismissed the defendants’
counterclaim. 879 F.2d at 625. The defendants had
developed factual allegations and legal theories with
respect to the counterclaim and presented them in
their briefing in opposition to the government’s motion.
Id. The defendants thus had a “full and fair
opportunity to ventilate the issues raised in their
counterclaim” that was not covered by the motion. Id.
There was similarly a full and fair opportunity here.
When Pizza Hut settled with Ameranth and
Domino’s requested to join Pizza Hut’s motion, the
district court allowed the request and permitted
Ameranth to file a supplemental opposition.
Ameranth’s supplemental opposition addressed all the
claims and not just the five listed in the summary
judgment motion. For instance, Ameranth argued the
patent eligibility of “the claims of the [’]077 Patent,”
stating that “none of the [’]077 Patent claims are
directed to merely ‘configuring and transmitting
menus,’” and contended that they are “not directed to
any abstract idea.” J.A. 10235, 10240; In re Ameranth,
ECF 1313 at 8. It asserted the “eligibility of claims
1–12 of the [’]077 Patent,” and further argued the nonconventionality of “all claims,” noting that they were
issued after “a lengthy, seven year prosecution process”

App. 12
and “found valid by the PTAB” in response to multiple
CBM petitions. J.A. 10250–51, 10255. Ameranth also
argued that “claims 2–5, 7, 10–12, 14–16 and 18 are
patent eligible.” J.A. 10258.
As such, we find that Ameranth had the opportunity
to and did address claims 7–8, 11, 14–16 and 18 in its
supplemental briefing. After a hearing, the district
court granted the summary judgment motion, ruling
that “the asserted claims of the [’]077 Patent are
unpatentable under § 101,” J.A. 15, and entered
judgment that “all asserted claims of the ’077 Patent
(claims 1, 4–9, 11, 13–18) are patent ineligible under
Section 101,” J.A. 1–2. Under the circumstances, we see
no procedural error in granting summary judgment
with respect to claims 7–8, 11, 14–16 and 18.
III. Patent Eligibility
We next address the patent eligibility of claims 1,
6–9, 11, and 13–18 of the ’077 patent. Ameranth argues
that the district court erred by relying on Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229 (Fed. Cir. 2016), which
held that claims of the ’850, ’325, and ’733 patents on
appeal are patent ineligible. Those patents and the ’077
patent are in the same patent family.
In Apple, the claims covered a first menu consisting
of menu categories and an application software for
generating a second menu using the first menu. 842
F.3d at 1234. The Board had determined that the
claims “are directed to the abstract idea of ‘generating
a second menu from a first menu and sending the
second menu to another location.’” Id. at 1240. This
court held that the claims are abstract as they neither

App. 13
recited “a particular way of programming or designing
the software to create menus” with particular features
nor covered “a specific improvement in the way
computers operate” and that the claim limitations are
insignificant post-solution activities. Id. at 1241–42.
Ameranth asserts that claims 1, 6–9, 11, and 13–18
of the ’077 patent recite different elements than the
claims at issue in Apple. To be sure, independent
claims 1, 9, and 13 are different from the claims in
Apple in some respects. Here, claims 1 and 9 cover
systems enabled for synchronous communications and
automatic formatting of a programmed handheld menu
configuration (“PHMC”) that is generated using a
master menu and that can display cascaded sets of
linked graphical user interface (“GUI”) screens for
multiple handheld devices. Similarly, claim 13 recites
a system that can automatically format a PHMC for
display as cascaded sets of linked GUI screens and
synchronize information between its master database,
handheld device, web server, and webpage.
Notwithstanding the difference from Apple, the district
court found that the claims of the ’077 patent suffered
from the same ineligibility defects. We agree, applying
the two-step approach of Alice Corp. v. CLS Bank
International, 573 U.S. 208 (2014) and Mayo
Collaborative Services v. Prometheus Laboratories, Inc.,
566 U.S. 66 (2012).
At step one, we “first determine whether the claims
at issue are directed to a patent-ineligible concept.”
Alice, 573 U.S. at 218. We generally agree with the
district court that the claims are directed to configuring
and transmitting hospitality menu related information

App. 14
using a system that is capable of synchronous
communications and automatic formatting. This focus
is confirmed by Ameranth’s characterization that
automatically configuring and synchronizing menus for
multiple handheld devices was not previously possible
and the specification’s emphasis that the inventions
enable automatic database updates and fast
synchronization between a database and handheld
devices. ’077 patent, col. 3, ll. 27–35, col. 5, ll. 3–7; see
also Charge-Point, Inc. v. SemaConnect, Inc., 920 F.3d
759, 765–66 (Fed. Cir. 2019) (explaining that the step
one inquiry “as looking at the ‘focus’ of the claims” and
the specification may illuminate the true focus).
As recited in the claims, the concept of synchronous
communications and automatic formatting for different
handheld devices without more is an abstract idea. See
Cellspin Soft, Inc. v. Fitbit, Inc., 927 F.3d 1306, 1316
(Fed. Cir. 2019) (“[T]he need to perform tasks
automatically is not a unique technical problem.”).
Claims 1, 9, and 13 do not contain specifics of “a
particular conception of how to carry out that concept”
and thus fail to make those claims non-abstract.
Interval Licensing LLC v. AOL, Inc., 896 F.3d 1335,
1346 (Fed. Cir. 2018). Those claims “fail[] to recite a
practical way of applying an underlying idea . . . [and]
instead were drafted in such a result-oriented way that
they amounted to encompassing ‘the principle in the
abstract’ no matter how implemented.” Id. at 1343; see
also Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d
1350, 1356 (Fed. Cir. 2016) (“[E]ssentially resultfocused” and functional language “has been a frequent
feature of claims held ineligible under § 101”).
Ameranth concedes that the claims cover “a particular

App. 15
way of programming and designing the software.”
Appellant Br. 23. But the claims do not describe the
software other than results sought to be achieved.2
Given that the claims are abstract, at step two, we
next determine whether the claimed limitations involve
more than “well-understood, routine, and conventional
activit[ies].” Alice, 573 U.S. at 225 (alteration in
original) (quoting Mayo, 566 U.S. at 73). The district
court concluded that the recited hardware and software
elements and features including “real-time
synchronization,” “automatic formatting . . . for display
as cascaded sets of linked graphical user interface[s],”
and a “different number of user interface screens from
at least one other wireless handheld computing device”
do not make the claims inventive. J.A. 14–15.
Claims fall short of an inventive concept when they
“simply instruct the practitioner to implement the
abstract idea with routine, conventional activity.”
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 715
(Fed. Cir. 2014). The specification acknowledges that
the “functions falling within the described invention”
can be based on “commonly known” programming
steps, ’077 patent, col. 12, ll. 57–61, and the claim
limitations describe a desired result but do not instruct

2

Ameranth argues that this case is like Core Wireless Licensing
S.A.R.L. v. LG Electronics, Inc., 880 F.3d 1356 (Fed. Cir. 2018)
where claims involving the display of menu on a screen were held
to be patent eligible. Core Wireless is distinguishable because there
the claims included specific details such as, inter alia, “a particular
manner by which the summary window must be accessed” and
limitations on “the type of data that can be displayed in the
summary window.” 880 F.3d at 1362–63.

App. 16
how to accomplish that result. The alleged abstract
idea cannot, itself, provide an inventive concept. This
is because “a claimed invention’s use of the ineligible
concept to which it is directed cannot supply the
inventive concept that renders the invention
‘significantly more’ than that ineligible concept.” BSG
Tech LLC v. Buyseasons, Inc., 899 F.3d 1281, 1290
(Fed. Cir. 2018). That is the case here. Accordingly, we
conclude that independent claims 1, 9, and 13 are
directed to an abstract idea, fail to disclose an inventive
concept, and thus are patent ineligible.
Dependent claims 6–8, 11, and 14–18 recite
limitations that do not cure the above problems. Claims
6 and 18 require a smartphone; claims 7 and 17 recite
completion of payment processing; and claim 8 recites
creating layout, views, or fonts in conformity with
display screen parameters and enabling preview for
manual modification. Claims 11 and 16 require two
integrated hospitality applications; claim 14 covers a
Wireless Hub Application, Web Hub Application,
Linked Databases, and Communications Setup
Application; and claim 15 recites automatic
importation of information from a database. These
additional limitations in those claims are themselves
routine and conventional, and thus we determine that
they are also patent ineligible.
Ameranth contends that the district court ignored
its declarations on the inventiveness of its patent
claims. But even after reviewing the evidence in the
light most favorable to Ameranth, it does not create a
genuine dispute of material fact that would preclude
summary judgment.

App. 17
The declarations to a large extent are directed to
unclaimed features. For instance, the declaration of Dr.
Michael Shamos, Ameranth’s expert, emphasizes that
maintaining screen linkages was a core feature why the
claimed inventions were not conventional. Such a
feature, however, is not recited in the claims.3
Other declarations are equally irrelevant for
different reasons. The declaration of inventor Mr. Keith
McNally includes statements that no one had
implemented the purported inventive features prior to
his realization. The declaration of Mr. Douglas Dedo
states that “Microsoft considered Ameranth’s new
system synchronization and integration technology to
be innovative and ground-breaking in 1999–2000.” J.A.
11112. But these declarations do little to relate the
claimed features to the asserted praise. In any event,
“[g]roundbreaking, innovative, or even brilliant
discovery does not by itself satisfy the § 101 inquiry.”
Ass’n for Molecular Pathology v. Myriad Genetics, Inc.,
569 U.S. 576, 591 (2013). And “[t]hat some of the . . .
steps were not previously employed . . . is not
enough—standing alone—to confer patent eligibility.”
Ultramercial, 772 F.3d at 716; see also Synopsys, Inc.
v. Mentor Graphics Corp., 839 F.3d 1138, 1p151 (Fed.
Cir. 2016) (“[A] claim for a new abstract idea is still an
abstract idea.” (emphasis in original)).
Ameranth also argues that its declarations confirm
that the inventions solved computerized problems. But

3

Ameranth similarly argues that its inventions eliminate the need
for scrolling in the display of small screen devices. This feature
also is not claimed.

App. 18
they contain general statements that are uninformative
and suffer from the above deficiencies.
Accordingly, we agree with the district court’s
determination that claims 1, 6–9, 11, and 13–18 are
patent ineligible.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s grant of summary judgment of patent
ineligibility with respect to claims 1, 6–9, 11, and
13–18, and remand to the district court to vacate the
judgment with respect to claims 4 and 5 for lack of
declaratory judgment jurisdiction.
AFFIRMED-IN-PART, VACATED-IN-PART,
AND REMANDED
COSTS
Each party shall bear its own costs.

App. 19
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1141, 2019-1144
[Filed November 1, 2019]
______________________________________
AMERANTH, INC.,
)
Plaintiff-Appellant
)
)
v.
)
)
DOMINO’S PIZZA, LLC,
)
DOMINO’S PIZZA, INC.,
)
Defendants-Appellees
)
)
PAPA JOHN’S USA, INC.,
)
OPENTABLE, INC., GRUBHUB, INC., )
SEAMLESS NORTH AMERICA, LLC,
)
O-WEB TECHNOLOGIES LTD.,
)
HOTELS.COM, L.P., STUBHUB, INC., )
TICKETMASTER, LLC, LIVE NATION )
ENTERTAINMENT, INC.,
)
TRAVELOCITY.COM LP, HOTEL
)
TONIGHT, INC., ORBITZ, LLC,
)
EXPEDIA, INC., FANDANGO, INC.,
)
HOTWIRE, INC., KAYAK SOFTWARE )
CORPORATION, EMN8, INC., HILTON )
INTERNATIONAL CO., HILTON
)
RESORTS CORPORATION, HILTON
)
WORLDWIDE, INC., USABLENET,
)
INC., STARWOOD HOTELS &
)
RESORTS WORLDWIDE INC., MOBO )
SYSTEMS, INC., AGILYSYS, INC.,
)
ATX INNOVATION, INC., BEST
)

App. 20
WESTERN INTERNATIONAL, INC.,
HYATT CORPORATION, ORDR.IN,
INC., NAAMA NETWORKS, INC.,
MARRIOTT HOTEL SERVICES, INC.,
MARRIOTT INTERNATIONAL, INC.,
RITZ CARLTON HOTEL COMPANY,
LLC, RENAISSANCE HOTEL
OPERATING COMPANY, APPLE, INC.,
TICKETBISCUIT, LLC, EVENTBRITE,
INC., TICKETFLY, INC., STARBUCKS
CORPORATION, IPDEV CO., ORACLE
CORPORATION,
Defendants
______________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeals from the United States District Court for
the Southern District of California in Nos. 3:11-cv01810-DMS-WVG, 3:12-cv-00733-DMS-WVG, Judge
Dana M. Sabraw.
______________________
JUDGMENT
______________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED-IN-PART, VACATED-IN-PART, AND
REMANDED
ENTERED BY ORDER OF THE COURT
November 1, 2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 21

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
CASE NO. 11cv1810 DMS (WVG)
[Filed September 25, 2018]
_____________________________
IN RE: AMERANTH CASES, )
)
_____________________________ )
ORDER GRANTING DEFENDANTS DOMINO’S
PIZZA, LLC AND DOMINO’S PIZZA, INC.’S
MOTION FOR SUMMARY JUDGMENT OF
UNPATENTABILITY
This case comes before the Court on the motion for
summary judgment of unpatentability of the sole
remaining patent in this case, United States Patent
Number 8,146,077 (“the ‘077 Patent”). The motion was
originally filed by Defendant Pizza Hut, LLC.
Ameranth filed an opposition to the motion, and Pizza
Hut filed a reply. After the motion was reset for
hearing, Ameranth and Pizza Hut settled their case.
Thereafter, Domino’s filed an ex parte motion to join
Pizza Hut’s motion and to again reset the motion for
hearing. The Court granted that ex parte motion, gave
Ameranth leave to file a surreply and reset the motion
for hearing. The motion came on for hearing on
September 21, 2018. William Caldarelli appeared and
argued for Ameranth and Frank Angileri appeared and

App. 22
argued for Domino’s. After thoroughly considering the
parties’ briefs and the record on file herein, and after
hearing oral argument from counsel, the Court grants
the motion.
I.
BACKGROUND
The ‘077 Patent is entitled, “Information
Management and Synchronous Communications
System with Menu Generation, and Handwriting and
Voice Modification of Orders.” As indicated in the
specification, there are four principal objects of the
invention described and claimed in the ‘077 Patent: To
provide an improved information management and
synchronous communications system that
(1) “facilitates user-friendly and efficient generation of
computerized menus for restaurants and other
applications that utilize equipment with non-PCstandard graphical formats, display sizes and/or
applications[,]” (2) “provides for entry, management
and communication of information from the operator as
well as to and from another computer, Web page menu,
remote digital device using a standard hardwired
connection, the internet or a wireless link[,] (3) “is
small, affordable and lightweight yet incorporates a
user-friendly operator interface and displays menus in
a readily comprehensible format[,]” and (4) “enables
automatic updating of both wireless and internet menu
systems when a new menu item is added, modified or
deleted from any element of the system.” (‘077 Patent
at 2:61-3:17.) There are eighteen claims in the ‘077
Patent, three independent and fifteen dependent.
Claim 1 is representative, and provides:

App. 23
An information management and real time
synchronous communications system for configuring
and transmitting hospitality menus comprising:
a. a central processing unit,
b. a data storage device connected to said
central processing unit,
c. an operating system including a first
graphical user interface,
d. a master menu including at least menu
categories, menu items and modifiers,
wherein said master menu is capable of being
stored on said data storage device pursuant
to a master menu file structure and said
master menu is capable of being configured
for display to facilitate user operations in at
least one window of said first graphical user
interface as cascaded sets of linked graphical
user interface screens, and
e. menu configuration software enabled to
generate a programmed handheld menu
configuration from said master menu for
wireless transmission to and programmed for
display on a wireless handheld computing
device, said programmed handheld menu
configuration comprising at least menu
categories, menu items and modifiers and
wherein the menu configuration software is
enabled to generate said programmed
handheld menu configuration by utilizing
parameters from the master menu file
structure defining at least the menu

App. 24
categories, menu items and modifiers of the
master menu such that at least the menu
categories, menu items and modifiers
comprising the programmed handheld menu
configuration are synchronized in real time
with analogous information comprising the
master menu,
wherein the menu configuration software is
further enabled to generate the programmed
handheld menu configuration in conformity
with a customized display layout unique to
the wireless handheld computing device to
facilitate user operations with and display of
the programmed handheld menu
configuration on the display screen of a
handheld graphical user interface integral
with the wireless handheld computing
device, wherein said customized display
layout is compatible with the displayable size
of the handheld graphical user interface
wherein the programmed handheld menu
configuration is configured by the menu
configuration software for display as
programmed cascaded sets of linked
graphical user interface screens appropriate
for the customized display layout of the
wireless handheld computing device, wherein
said programmed cascaded linked graphical
user interface screens for display of the
handheld menu configuration are configured
differently from the cascaded sets of linked
graphical user interface screens for display of

App. 25
the master menu on said first graphical user
interface, and
wherein the system is enabled for real time
synchronous communications to and from the
wireless handheld computing device utilizing
the pr o gr am m ed handheld menu
configuration including the capability of real
time synchronous transmission of the
programmed handheld menu configuration to
the wireless handheld computing device and
real time synchronous transmissions of
selections made from the handheld menu
configuration on the wireless handheld
computing device, and
wherein the system is further enabled to
automatically format the programmed
handheld menu configuration for display as
cascaded sets of linked graphical user
interface screens appropriate for a
customized display layout of at least two
different wireless handheld computing device
display sizes in the same connected system,
and
wherein a cascaded set of linked graphical
user interface screens for a wireless
handheld computing device in the system
includes a different number of user interface
screens from at least one other wireless
handheld computing device in the system.
(Id. at 15:56-16:61.)

App. 26
The ‘077 Patent was filed on April 22, 2005, and is
a continuation of United States Patent Number
6,982,733 (“the ‘733 Patent”), which in turn is a
continuation-in-part of United States Patent Number
6,384,850 (“the ‘850 Patent). United States Patent
Number 6,871,325 (“the ‘325 Patent”) is also part of
this patent family, and is a continuation of the ‘850
Patent. The specification of the ‘077 Patent is identical
to that of the ‘733 Patent, and it is “largely the same as
[the ‘850 and ‘325 Patents], containing two additional
figures and some additional description.” Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1234 n.1 (Fed. Cir.
2016).1
These consolidated cases, when originally filed in
2011, alleged infringement of the ‘850 and ‘325 Patents
only. The ‘733 and ‘077 Patents were added to the case
in subsequent pleadings. In 2013, a majority of
Defendants in these cases filed petitions with the
Patent Trial and Appeal Board (“PTAB”) seeking
review of the ‘850, ‘325 and ‘733 Patents under the
Transitional Program for Covered Business Method
(“CBM”) Patents. The PTAB instituted review on all
three petitions, and it found certain claims of these
three patents unpatentable under 35 U.S.C. § 101. On
appeal, the Federal Circuit affirmed the PTAB’s
determinations of unpatentability, and reversed the
PTAB’s determinations that the other claims were
patentable. Id. at 1245. Specifically, the Federal Circuit

1

Exhibit A to the Declaration of Melissa Smith in support of Pizza
Hut’s motion is a version of the ‘077 Patent that highlights those
portions of the specification that were not included in the
specification of the ‘850 Patent. (See ECF No. 1120-3.)

App. 27
found all instituted claims of the ‘850, ‘325 and ‘733
Patents unpatentable under § 101. Id. In light of that
decision, the ‘850, ‘325 and ‘733 Patents are no longer
at issue here.
Various Defendants in these cases also twice
petitioned the PTAB for CBM review of the ‘077 Patent.
The first of those petitions was filed in 2014, and was
denied. (See Decl. of John Osborne in Supp. of Opp’n to
Mot. (“Osborne Decl.”), Ex. 9.) The second petition was
filed in 2017, after the Supreme Court’s decision in
Alice Corp. Pty Ltd. v. CLS Bank Int’l, ___ U.S. ___, 138
S.Ct. 2347 (2014), and the Federal Circuit’s decision in
Apple. That petition was also denied. (See Osborne
Decl., Ex. 5.)
II.
DISCUSSION
Domino’s moves for summary judgment that the
‘077 Patent is unpatentable under § 101. Specifically,
Domino’s argues the claims of the ‘077 Patent are
directed to an abstract idea, and the claim elements,
considered individually and in combination, fail to
transform that abstract idea into a patent-eligible
invention.
Section 101 of the Patent Act provides, “Whoever
invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any
new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and
requirements of this title.” 35 U.S.C. § 101. The
Supreme Court has “‘long held that this provision
contains an important implicit exception: Laws of

App. 28
nature, natural phenomena, and abstract ideas are not
patentable.’” Alice, 134 S.Ct. at 2354 (quoting Ass’n for
Molecular Pathology v. Myriad Genetics, Inc., 569 U.S.
___, 133 S.Ct. 2107, 2116 (2013)). The reason for this
exception is “pre-emption. [citation omitted] Laws of
nature, natural phenomena, and abstract ideas are ‘the
basic tools of scientific and technological work.’” Id.
(quoting Myriad, 133 S.Ct. at 2116) (internal quotation
marks omitted). “‘[M]onopolization of those tools
through the grant of a patent might tend to impede
innovation more than it would tend to promote it,’
thereby thwarting the primary object of the patent
laws.” Id. (quoting Mayo Collaborative Services v.
Prometheus Labs., Inc., 566 U.S. ___, 132 S.Ct. 1289,
1293 (2012)). The Supreme Court has also stated,
however, that courts must “tread carefully in
construing this exclusionary principle lest it swallow
all of patent law.” Id. (citing Mayo, 132 S.Ct. at 129394). As stated in Alice, courts “must distinguish
between patents that claim the ‘buildin[g] block[s]’ of
human ingenuity and those that integrate the building
blocks into something more, thereby ‘transform[ing]’
them into a patent-eligible invention[.]” Id. (quoting
Mayo, 132 S.Ct. at 1294, 1303).
The test for determining patent-eligibility is twopronged. “First, we determine whether the claims at
issue are directed to one of those patent-ineligible
concepts.” Id. at 2355. This “‘directed to’ inquiry applies
a stage-one filter to claims, considered in light of the
specification, based on whether ‘their character as a
whole is directed to excluded subject matter.’” Enfish,
LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir.
2016) (quoting Internet Patents Corp. v. Active Network,

App. 29
Inc., 790 F.3d 1343, 1346 (Fed. Cir. 2015)). At stage
one, courts “look to whether the claims in the patent
focus on a specific means or method, or are instead
directed to a result or effect that itself is the abstract
idea and merely invokes generic processes and
machinery.” Two-Way Media Ltd. v. Comcast Cable
Communications, LLC, 874 F.3d 1329, 1337 (Fed. Cir.
2017), pet. for cert. filed, (U.S. July 27, 2018) (No. 18124), (citing McRO, Inc. v. Bandai Namco Games Am.,
Inc., 837 F.3d 1299, 1314 (Fed. Cir. 2016)).
If the claims are directed to an abstract idea, courts
then proceed to the second step, which asks “‘[w]hat
else is there in the claims before us?’” Alice, 132 S.Ct.
at 2355 (quoting Mayo, 132 S.Ct. at 1296-97). “To
answer that question, we consider the elements of each
claim both individually and ‘as an ordered combination’
to determine whether the additional elements
‘transform the nature of the claim’ into a patenteligible application.” Id. (quoting Mayo, 132 S.Ct. at
1298, 1297). The Supreme Court “described step two of
this analysis as a search for an ‘inventive concept’–i.e,
an element or combination of elements that is
‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the
[ineligible concept] itself.’” Id. (quoting Mayo, 132 S.Ct.
at 1294) (quotation marks omitted).
“Patent eligibility under § 101 presents an issue of
law that [the Federal Circuit] review[s] de novo.”
Accenture Global Servs., GmbH v. Guideware Software,
Inc., 728 F.3d 1336, 1340-41 (Fed. Cir. 2013) (citing
Bancorp Servs., LLC v. SunLife Assurance Co. of Can.,
687 F.3d 1266, 1273 (Fed. Cir. 2012)). “This legal

App. 30
conclusion may contain underlying factual issues.” Id.
at 1341 (citing Ultramercial, Inc. v. Hulu, LLC, 722
F.3d 1335, 1339 (Fed. Cir. 2013)). However, “it is also
possible, as numerous cases have recognized, that a
§ 101 analysis may sometimes be undertaken without
resolving factual issues.” Mortgage Grader, Inc. v. First
Choice Loan Servs., Inc., 811 F.3d 1314, 1325 (Fed. Cir.
2016). In that circumstance, “the § 101 inquiry may
appropriately be resolved on a motion for summary
judgment.” Id.
A. Step One - Abstract Idea
“The ‘abstract ideas’ category embodies ‘the
longstanding rule that [a]n idea of itself is not
patentable.’” Alice, 134 S.Ct. at 2355 (quoting
Gottschalk v. Benson, 409 U.S. 63, 67 (1972)). The
Federal Circuit has recognized that “‘[i]nformation as
such is an intangible’ and that collecting, analyzing,
and displaying that information, without more, is an
abstract idea.” Interval Licensing LLC v. AOL, Inc., 896
F.3d 1335, 1344 (Fed. Cir. 2018) (citing Elec. Power
Grp., LLC v. Alstom, 830 F.3d 1350, 1353-54 (Fed. Cir.
2016)). See also Intellectual Ventures I LLC v. Capital
One Financial Corp. (“Intellectual Ventures III”), 850
F.3d 1332, 1340 (Fed. Cir. 2017) (stating collecting,
displaying and manipulating data is abstract idea). It
has also stated, “[t]he category of abstract ideas
embraces ‘fundamental economic practice[s] long
prevalent in our system of commerce,’ including
‘longstanding commercial practice[s]’ and ‘methods of
organizing human activity[.]’” Intellectual Ventures I
LLC v. Symantec Corp., 838 F.3d 1307, 1313 (Fed. Cir.
2016) (quoting Alice, 134 S.Ct. at 2356). This is so even

App. 31
if the practices or methods are “performed on a
computer[,]” Enfish, 822 F.3d at 1334, or are limited “to
a particular field of use or technological environment,
such as the Internet.” Intellectual Ventures I LLC v.
Capital One Bank (USA), 792 F.3d 1363, 1366 (Fed.
Cir. 2015). At Alice step one, the key consideration is
“‘whether the claims ... focus on a specific means or
method that improves the relevant technology or are
instead directed to a result or effect that itself is the
abstract idea and merely invoke generic processes and
machinery.’” Smart Systems Innovations, LLC v.
Chicago Transit Authority, 873 F.3d 1364, 1371 (Fed.
Cir. 2017) (quoting McRO, 837 F.3d at 1313). “The
Federal Circuit has recognized that this process
sometimes involves ‘close calls about how to
characterize what the claims are directed to.’” Local
Intelligence, LLC v. HTC America, Inc., No. 5:17-cv06437-EJD, 2018 WL 1697127, at *4 (N.D. Cal. Apr. 6,
2018) (quoting BASCOM Glob. Internet Servs., Inc. v.
AT&T Mobility LLC, 827 F.3d 1341, 1348 (Fed. Cir.
2016)). It has also “acknowledged that ‘precision has
been elusive in defining an all-purpose boundary
between the abstract and the concrete.’” Affinity Labs
of Texas, LLC v. DIRECTV, LLC, 838 F.3d 1253, 1258
(Fed. Cir. 2016), cert. denied, ___ U.S. ___, 137 S.Ct.
1596 (2017), (quoting Internet Patents, 790 F.3d at
1345).
Here, the parties dispute what the claims of the ‘077
Patent are directed to. Domino’s argues the claims are
directed to the abstract idea of configuring and
transmitting menu information. Ameranth is less clear
in what the claims are directed to. In its initial
opposition to the motion, it asserted “[t]he invention

App. 32
was, inter alia, in the software which configured the
hardware to perform the inventive functions[,]” and
that the claims were “directed to specific
implementations of ‘master menus’ whereby they are,
inter alia, used to configure ‘programmed handheld
menu configurations’ (‘PHMC’) by using the master
menu ‘file structure’ and are synchronized with the
handheld PHMC.” (Opp’n at 11.) In the supplemental
opposition, Ameranth has retreated from its position
that the invention is in the software, and is now
explaining the claims by reference to the problem
allegedly being solved, which Ameranth describes as
“the challenges of synchronizing and automatically
reformatting hospitality information contained in a
master menu/master database with different wireless
handheld devices with varying display screen sizes and
characteristics[.]” (Supp. Opp’n at 2-3.) This reference
to the problem, however, is not a complete or concise
explanation of what the claims are directed to. On their
face, the claims are directed to a system for
(1) configuring and transmitting hospitality
information from a master menu/database to wireless
handheld devices with different display screen sizes
and (2) enabling real-time synchronous
communications and formatting between the wireless
handheld devices and the master database.
In Apple, the Federal Circuit found the claims of the
‘850, ‘325 and ‘733 Patents were directed to an abstract
idea. 842 F.3d at 1241. The claims there were directed
to “systems including menus with particular features.”
Id. Here, the claims include additional limitations,
namely, wireless handheld devices with different
display screen sizes, and enabling real-time

App. 33
synchronous communications and formatting between
the devices in the system. However, none of those
limitations fills the void set out by the Federal Circuit
in Apple. In other words, despite the additional
limitations, the claims here, like those in the related
patents, “do not claim a particular way of programming
or designing the software to create menus that have
these features, but instead merely claim the resulting
systems.” Id.
Ameranth attempts to avoid this result by relying
on the two PTAB decisions denying the requests to
institute CBM review of the ‘077 Patent. The first of
those decisions, however, was issued before the Federal
Circuit’s decision in Apple. That decision also relies on
Ultramercial, 722 F.3d 1335, which was subsequently
vacated by the Supreme Court.2 (See Osborne Decl., Ex.
9 at 34.) And the second decision does little more than
explain why the first decision was correct. (See Osborne
Decl., Ex. 5.) This Court is not particularly persuaded
by the reasoning of those decisions, and in any event,
those decisions are not binding on this Court.
Ameranth also relies on three cases: Core Wireless
Licensing S.A.R.L. v. LG-Electronics, Inc., 880 F.3d
1356 (Fed. Cir. 2018), Visual Memory LLC v. NVIDIA
Corp., 867 F.3d 1253, 1258 (Fed. Cir. 2017), and Local
Intelligence, 2018 WL 1697127. But each of those cases
is distinguishable.

2

In a revised decision, the Federal Circuit found the claims in
Ultramercial were “patent-ineligible under § 101.” Credit
Acceptance Corp. v. Westlake Servs., 859 F.3d 1044, 1048 (Fed. Cir.
2017).

App. 34
In Core Wireless and Local Intelligence, the patents
at issue “disclose[d] improved display interfaces,
particularly for electronic devices with small screens
like mobile telephones.” 880 F.3d at 1359. See also
Local Intelligence, 2018 WL 1697127, at *8 (finding
claims at issue indistinguishable from claims at issue
in Core Wireless). Similarly, in Visual Memory, the
asserted claims were “directed to a technological
improvement: an enhanced computer memory system.”
867 F.3d at 1259. In essence, the claims in both cases
were “directed to a specific improvement in the
capabilities of computing devices[.]” Core Wireless, 880
F.3d at 1361-62.
Unlike the claims in those cases, the claims of the
‘077 Patent are not directed to improving the
capabilities of any particular computing device. Rather,
the ‘077 Patent is directed to “computerization” of
“paper-based ordering, waitlist and reservations
management ... in the hospitality industry.” (‘077
Patent at 2:45-57.”) (See also Rep. Tr. (Draft) at 4, Sept.
21, 2018 (describing problem being solved as “taking
the large-scale paper menus that we have all seen and
trying to get them down into a blackberry screen in a
way that was usable and readable.”)) And the claims
themselves are directed to the resulting system
wherein hospitality information is configured and
transmitted to wireless devices with different display
screen sizes, and those devices are able to engage in
real-time synchronous communication with other
devices in the system. Like the claims of the ‘850, 325
and ‘733 Patents, which the Federal Circuit found to be
patent-ineligible, the claims of the ‘077 Patent:

App. 35
do not claim a particular way of programming or
designing the software to create menus that
have [the claimed] features, but instead merely
claim the resulting systems. [citation omitted]
Essentially, the claims are directed to certain
functionality–here, the ability to generate
menus with certain features. Alternatively, the
claims are not directed to a specific improvement
in the way computers operate.
Apple, 842 F.3d at 1241 (citation omitted). To be sure,
the claims of the ‘077 Patent include functionality in
addition to the generation and transmission of menus,
but the inclusion of additional steps does not change
the nature of the underlying invention, which is
“directed to an abstract idea.” Id. See also Interval
Licensing, 896 F.3d at 1344-45 (finding claims “directed
to an abstract idea because they consist of generic and
conventional information acquisition and organization
steps that are connected to, but do not convert, the
abstract idea–displaying a second set of data without
interfering with a first set of data–into a particular
conception of how to carry out that concept.”); Uniloc
USA, Inc. v. HTC America, Inc., No. C17-1558JLR,
2018 WL 30008870, at *7 (W.D. Wash. June 15, 2018),
appeal docketed, No. 18-2185 (Fed. Cir. July 23, 2018),
(finding claims directed to abstract idea where they
were “directed to a result, not a specific means or
method” and were “not technological improvements[.]”)
Thus, the Court proceeds to step two of the § 101
inquiry.

App. 36
B. Step Two - Inventive Concept
The second step of the § 101 inquiry “is the search
for an inventive concept, which is something sufficient
to ensure that the claim amounts to significantly more
than the abstract idea itself.” Secured Mail Solutions
LLC v. Universal Wilde, Inc., 873 F.3d 905, 911 (Fed.
Cir. 2017), cert. denied, ___ U.S. ___, 138 S.Ct. 2000
(May 14, 2018), (citing Content Extraction &
Transmission LLC v. Wells Fargo Bank, 776 F.3d 1343,
1347 (Fed. Cir. 2014)). Here, “we ‘look with more
specificity at what the claim elements add, in order to
determine whether they identify an inventive concept
in the application of the ineligible subject matter to
which the claim is directed.” Intellectual Ventures III,
850 F.3d at 1338 (quoting Affinity Labs, 838 F.3d at
1258). “To save a patent at step two, an inventive
concept must be evident in the claims.” Two-Way, 874
F.3d at 1338 (citing RecogniCorp, LLC v. Nintendo Co.,
855 F.3d 1322, 1327 (Fed. Cir. 2017)).
Here, claim 1 sets out a number of elements in the
patented system, including: (1) Computer hardware (“a
central processing unit[,]” etc.), (2) computer software
(“an operating system[,]” “menu configuration
software”), (3) “real-time synchronous communication”
to and from the wireless handheld computing devices,
and (4) “automatically format[ting] the programmed
handheld menu configuration” for “at least two
different wireless handheld computing device display
sizes[.]”3 Domino’s goes through these elements

3

These elements are essentially the same as those set out in the
other independent claims, 9 and 13.

App. 37
individually and in combination, and explains why they
do not transform the abstract idea discussed above into
an inventive concept.
As to the hardware elements, Domino’s asserts
those elements are typical and conventional, and
Ameranth does not dispute that assertion.
As to the software elements, Domino’s argues those
are “commonly known.” Ameranth does not dispute
that argument either, nor could it in light of the
specification. (See ‘077 Patent at 12:57-61 (“The
software applications for performing the functions
falling within the described invention can be written in
any commonly used computer language. The discrete
programming steps are commonly known and thus
programming details are not necessary to a full
description of the invention.”))
On the element of synchronization, Domino’s
contends that was “insignificant post-solution activity,”
as found by the Federal Circuit in Apple. 842 F.3d at
1242. Ameranth does not dispute this argument, but
instead argues the synchronization element was “nonconventional.” (See Supp. Opp’n at 18-23.) Ameranth’s
argument, however, fails to acknowledge the Federal
Circuit’s decision in Apple, much less refute the court’s
statement that “[t]he invention merely claims the
addition of conventional computer components to wellknown business practices.” 842 F.3d at 1242.
Ameranth’s argument also fails to address the
specification, which describes one of the benefits of the
Windows CE® operating system as “built-in
synchronization between handheld devices, internet
and desktop infrastructure[.]” (‘077 Patent at 12:14-17.)

App. 38
Domino’s did not address the concept of “real-time”
separately from the concept of “synchronization,” but
that element, too, fails to demonstrate an inventive
concept. As stated by this Court in a previous case,
“[r]eal-time execution is essentially adding a ‘but faster’
step to the claim.” Clarilogic, Inc. v. Formfree Holdings
Corp., No. 15-cv-41 DMS (NLS), 2016 WL 3247890, at
*2 (S.D. Cal. Mar. 4, 2016). And the simple inclusion of
a “real-time” feature through the use of “entirely
conventional, generic technology[,]” which is what the
claims of the ‘077 Patent recite, does not provide an
inventive concept. Elec. Power Grp., 830 F.3d at 1356.
See also Two-Way Media, 874 F.3d at 1340-41 (finding
no inventive concept in claim requiring “receiving and
transmitting a real-time media stream” through
“anything other than conventional computer and
network components according to their ordinary
functions.”)
The only other two elements set out in the claims
are the automatic formatting of the programmed
handheld menu configuration for display as cascaded
sets of linked graphical user interface screens, and the
requirement that the system include “a different
number of user interface screens from at least one
other wireless handheld computing device in the
system.” On these two elements, Domino’s again says
they were “commonplace,” and Ameranth again does
not dispute that assertion. Instead, it reverts to its
unconventionality argument. That argument, however,
is little more than ipse dixit. And automatically
formatting the programmed handheld menu
configuration in a particular way and for more than
one handheld device adds little, if anything, to the

App. 39
invention beyond the concept of synchronization
discussed above. That Ameranth has described the
concept in different terms does not make it any more
inventive. See Intellectual Ventures III, 850 F.3d at
1342 (“The mere fact that the inventor applied coined
labels to conventional structures does not make the
underlying concept inventive.”)
As with the related patents, there is nothing in
these elements, either individually or in combination
that “transform[s] the claimed abstract idea into a
patent-eligible application of the abstract idea.” Apple,
842 F.3d at 1242. Accordingly, the asserted claims of
the ‘077 Patent are unpatentable under § 101.
III.
CONCLUSION
For these reasons, the Court grants Domino’s
motion for summary judgment of unpatentability, and
vacates all dates currently set in these cases. The
parties shall meet and confer on the form of judgment,
i.e., whether judgment should be entered in the lead
case on all claims or whether judgment should be
entered in each individual case, and submit either a
joint proposed judgment/judgments or a joint status
report on or before October 2, 2018.
IT IS SO ORDERED.
DATED: September 25, 2018
/s/Dana M. Sabraw
HON. DANA M. SABRAW
United States District Judge

App. 40

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
Lead Case No. 11cv1810 DMS (WVG)
[Filed July 27, 2018]
_____________________________
IN RE: AMERANTH PATENT )
LITIGATION
)
)
_____________________________ )
JOINT PRE-TRIAL ORDER
[LOCAL RULE 16.1.f.6]
[AMERANTH DOMINO’S]
Plaintiff, Ameranth, Inc. (“Ameranth”) and
defendants Domino’s Pizza, LLC and Domino’s Pizza,
Inc. (“Domino’s”) hereby submit this Joint Pre-Trial
Order pursuant to Local Rule 16.1.f.6 and the Court’s
December 14, 2017 Case Management Conference
Order (Dkt. No. 898).
1. Statement of the Case to be Read to Jury
See Exhibit 1.
2. List of Causes of Action to be Tried
See Exhibit 2.

App. 41
3. Witness Lists
a. Ameranth’s lists of fact witnesses expected to
be called, expert witnesses expected to be called, and
additional witnesses for which the right to call is
reserved, is attached as Exhibit 3.
a. Domino’s lists of fact witnesses expected to be
called, expert witnesses expected to be called, and
additional witnesses for which the right to call is
reserved, is attached as Exhibit 4.
4. Exhibit Lists
a. Ameranth’s lists of exhibits expected to be
offered at trial, and exhibits for which the right to offer
at trial is reserved, is attached as Exhibit 5.
b. Domino’s lists of exhibits expected to be
offered at trial, and exhibits for which the right to offer
at trial is reserved, is attached as Exhibit 6.
5. Statement of Stipulated Facts
See Exhibit 7.
6. Deposition Transcript Excerpts to be Offered at
Trial in Lieu of Live Testimony
a. Ameranth’s list of deposition excerpts to be
offered at trial in lieu of live testimony is attached as
Exhibit 8.
b. Domino’s list of deposition excerpts to be
offered at trial in lieu of live testimony is attached as
Exhibit 9.

App. 42
7. Jury Instructions, Verdict Forms, Voir Dire
Questions
The parties will submit proposed jury instructions,
verdict forms and voir dire questions to the Court as
provided in Local Rule 16.1.f.9.b.
8. Jury Trial/ Issues to be Determined by the Court
The case shall be tried by jury. However, questions
of patentability under 35 U.S.C. § 101, and whether a
case is exceptional are questions of law to be
determined by the Court. Ameranth also contends that
questions of indefiniteness are to be determined by the
Court. Domino’s contends that factual issues of
indefiniteness are to be submitted to the jury.
Likewise, any award of pre-judgment or post-judgment
interest is to be determined by the Court.
9. Time Estimate for Trial
The parties will each present its case in 15 to 20
hours.
Dated: July 27, 2018
CALDARELLI HEJMANOWSKI & PAGE
LLP
By: /s/ William J. Caldarelli
William J. Caldarelli
Lee Hejmanowski
Ben West
FABIANO LAW FIRM, P.C.
Michael D. Fabiano

App. 43
OSBORNE LAW LLC
John W. Osborne
WATTS LAW OFFICE
Ethan M. Watts
Attorneys for Plaintiff Ameranth, Inc.
By:/s/ Thomas W. Cunningham
Frank A. Angileri (Pro Hac Vice)
fangileri@brookskushman.com
Thomas W. Cunningham (Pro Hac Vice)
tcunningham@brookskushman.com
1000 Town Center, Twenty-Second Floor
Southfield, MI 48075-1238
Telephone: (248) 358-4400
Facsimile: (248) 358-3351
Stephen S. Korniczky, Esq. (SBN 135532)
skorniczky@sheppardmullin.com
Sheppard Mullin Richter & Hampton LLP
12275 El Camino Real, Suite 200
San Diego, CA 92130-2006
Telephone: (858) 720-8900
Facsimile: (858) 720-4882
Attorneys for Defendants DOMINO’S PIZZA,
LLC and DOMINO’S PIZZA, INC.
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 44
EXHIBIT 1
JOINT STATEMENT OF THE CASE
This is an action for patent infringement.
The parties in this case are plaintiff Ameranth, Inc.
(“Ameranth”), and defendants Domino’s Pizza, LLC
and Domino’s Pizza, Inc. (“Domino’s”).
The plaintiff in this case is Ameranth, Inc.
Ameranth asserts that it is the owner of United States
Patent No. 8,146,077—which you will hear referred to
as “the ’077 Patent.” Domino’s contests that assertion.
Ameranth filed suit in this court seeking money
damages from defendant Domino’s for allegedly
infringing the ’077 Patent by using, selling, and/or
offering for sale a system that Ameranth contends
practices claims 1, 6, 9, 13 and 17 of the ’077 Patent.
Ameranth also contends that Domino’s has actively
induced and contributed to infringement to these
claims of the ’077 Patent by others.
Domino’s is a pizza company that supports
franchise pizza delivery restaurants. Domino’s operates
an electronic ordering system through which
consumers all over the country can, among other
things, view the menu for their local Domino’s store
and place orders for pizza or other food items, for
delivery or carry-out.
Ameranth contends that Domino’s online ordering
system, together with Domino’s mobile applications
operating on user mobile devices, infringes Ameranth’s
’077 Patent. Domino’s disputes Ameranth’s contentions

App. 45
and its claim for damages. Domino’s contends that its
systems do not infringe Ameranth’s patent because
they are fundamentally different from the claims of the
’077 Patent.
Domino’s also asserts that the ’077 Patent is invalid
because: (1) the claims of the ’077 Patent not meet the
requirements of patentability, (2) Ameranth put the
invention on sale more than one-year prior to filing for
the patent, and (3) because the technology was already
known, or was obvious, at the time of the alleged
invention. Ameranth disputes these assertions and
contends that the ’077 Patent is valid and enforceable.

App. 46
EXHIBIT 2
CAUSES OF ACTION TO BE TRIED1
A. Direct Infringement of the ’077 Patent.
Whether Ameranth has proven by a preponderance
of the evidence that Domino’s directly infringes any
of the Asserted Claims (1, 6, 9, 13 and 17) of the
’077 Patent, either literally or under the doctrine of
equivalents.
1. Elements of Direct Infringement.
a. A defendant literally infringes an Asserted
Claim if it makes, uses, offers to sell, or sells
an accused product, as each of those terms
are defined by the Court, that
includes/practices every limitation of the
Asserted Claim.
b. The fact that an accused product may have
additional features not included in the patent
claim will not avoid infringement, so long as
the requirements of direct infringement are
satisfied.
A defendant infringes an Asserted Claim
under the doctrine of equivalents if it makes,
uses, offers to sell, or sells a system that
includes parts that are identical or
equivalent to each limitation of the Asserted
Claim. A part is equivalent to a limitation of

1

The statements herein are not binding on the parties’ jury
instruction positions.

App. 47
an Asserted Claim if a person of ordinary
skill in the field would think the differences
between the claim limitation and the
corresponding aspect of an Accused Product
are insubstantial. One way to determine this
is to look at whether the corresponding
aspect of the Accused Product performs
substantially the same function, in
substantially the same way, to achieve
substantially the same result as the
limitation in the claimed invention.
The application of the Doctrine of
Equivalents can be limited by events
occurring during patent prosecution, by claim
amendment, or by the prior art, as provided
by law.
2. Damages for Direct Infringement
A patent holder should be awarded a reasonable
royalty if a valid claim of a patent is infringed. A
reasonable royalty is the payment for a license
that would have resulted from a hypothetical
negotiation between the patent holder and the
alleged infringer taking place at the time the
first infringing activity began.
3. Defenses to Direct Infringement
a. There can be no direct infringement of an
Asserted Claim if a patent holder fails to
prove that defendant makes, uses, offers to
sell, or sells a system that practices every
element that Asserted Claim.

App. 48
b. There can be no infringement of a patent
claim that a defendant proves by clear and
convincing evidence is invalid as anticipated
or obvious or invalid for indefiniteness.
B. Indirect Infringement
1. Contributory Infringement of the ’077 Patent.
Whether Ameranth has proven by a
preponderance of the evidence that Domino’s
contributorily infringes any of the Asserted
Claims (1, 6, 9, 13 and 17) of the 077 Patent?
a. Elements of the Claim.
To show contributory infringement, a patent
holder must prove:
1. Another person or entity
infringes a claim of the patent.

directly

2. The defendant offers for sale or sells an
important component of the infringing
product or system.
3. The component offered for sale or sold by
defendant is not a common component
suitable for non-infringing use, but
rather, is especially made or adapted for
a use that infringes the claimed
invention.
4. The defendant offers for sale or sells the
component with knowledge of the patent
and knowledge that the component is

App. 49
especially made or adapted for use in a
manner that infringes the patent.
b. Damages for Contributory Infringement.
A patent holder should be awarded a
reasonable royalty for infringing use of claim
of a patent. The amount of damages for
contributory infringement is limited by the
number of instances of direct infringement by
a product or system to which the defendant
substantially contributed.
c. Defenses to Contributory Infringement
1. There can be no contributory
infringement if patent holder fails to
establish that there is any direct infringer
(i.e., a user that makes, uses, offers to
sell, or sells a system that practices every
element of an Asserted Claim).
2. There can be no contributory
infringement if a patent holder fails to
identify a part that is sold and especially
adapted or made for a use that infringes.
3. There can be no contributory
infringement if a patent holder fails to
show knowledge that the part was
especially made “for a use that infringes
the claimed invention.”
2. Inducing Infringement of the ’077 Patent.
Whether Ameranth has proven by a
preponderance of the evidence that Domino’s

App. 50
induces infringement any of the Asserted Claims
(1, 6, 9, 13 and 17) of the ’077 Patent?
a. Elements of the Claim.
To show inducing infringement, a patent holder
must prove:
1. Another person or entity
infringes a claim of the patent.

directly

2. The defendant either: (a) intentionally
took action during the time the patent
claim was in force intending to cause the
infringing acts by the alleged direct
infringer or (b) the defendant was aware
of the patent and knew that the acts, if
taken, would constitute infringement of
that patent; or (c) the defendant believed
there was a high probability that the acts
by the alleged direct infringer infringed
the ’077 Patent, and the defendant took
deliberate steps to avoid learning of that
infringement.
b. Damages for Inducing Infringement.
A patent holder should be awarded a
reasonable royalty for infringing use of claim
of a patent. The amount of damages for
inducing infringement is limited by the
number of instances of direct infringement by
a product or system that induced.

App. 51
c. Defenses to Inducing Infringement of the
’077 Patent
1. There can be no induced infringement if
patent holder fails to establish that there
is any direct infringer (i.e,. a user that
makes, uses, offers to sell, or sells a
system that practices every element of an
Asserted Claim)
2. If the defendant was aware of the patent
but reasonably believed that the acts in
question did not infringe the patent, then
the defendant cannot be liable for induced
infringement.
C. Invalidity by Anticipation
Whether Domino’s has proven by clear and
convincing evidence that any of the Asserted Claims
of the ’077 Patent are invalid on the grounds of
anticipation under 35 U.S.C. § 102.
1. Elements of Anticipation
a. To anticipate a claim, each and every
limitation in the claim must be present in a
single item of prior art, either stated
expressly or inherently, so that someone of
ordinary skill in the art to which the claimed
invention pertains, looking at that one
reference, could make and use the claimed
invention.

App. 52
D. Invalidity by Obviousness
Whether Domino’s has proven by clear and
convincing evidence that any of the Asserted Claims
of the ’077 Patent is invalid as obvious under 35
U.S.C. § 103.
1. Elements of Obviousness
a. A patent claim is invalid for obviousness if
the claimed invention, as a whole, would
have been obvious to a person of ordinary
skill in the field of the invention at the time
the invention was made, taking into account
additional considerations, if any, indicating
that the invention was not obvious,
including, inter alia, evidence of secondary
factors indicating non-obviousness.
E. Invalidity by Indefiniteness (35 U.S.C. § 112)
Whether Domino’s has proven by clear and
convincing evidence that any of the Asserted Claims
of the ’077 Patent are invalid as indefinite under 35
U.S.C. § 112.
1. Elements of Indefiniteness
A claim term is indefinite if it leaves the skilled
artisan to consult the unpredictable vagaries of
any one person’s opinion or if the claims, read in
light of the disclosure, fail to inform those
skilled in the art about the scope of the
invention with reasonable certainty.

App. 53
F. Invalidity by Lack of Patentable Subject Matter (35
U.S.C. § 101)
Whether Domino’s has proven by clear and
convincing evidence that any of the Asserted Claims
of the ’077 Patent is invalid as directed to
unpatentable subject matter under 35 U.S.C. § 101.
1. Elements of Non-Patentable Subject Matter
An inventor is not entitled to a patent on laws of
nature, natural phenomena, or abstract ideas.
Determining whether the patent claims are
directed to such patent-ineligible subject matter
involves two steps.
First, there must be a determination as to
whether the claims at issue are directed to a
patent-ineligible concept, such as an abstract
idea. If not, the inquiry stops there.
If they are directed to a patent-ineligible
concept, the elements of each asserted claim
must be considered both individually and as an
ordered combination to determine whether the
claims contain an “inventive concept,” meaning
the claims contain limitation(s) that transform
the nature of the claim into a patent-eligible
application of the abstract idea.
Well-understood, routine, or conventional
activities previously known to the industry do
not provide an “inventive concept.”

App. 54
G. Exceptional Case
Whether this is an exceptional case under 35 U.S.C.
§ 285 for which either Ameranth or Domino’s is
entitled to attorneys’ fees.
1. Elements of Exceptional Case
a. Prevailing party
b. Must consider the totality of the
circumstances and determine whether the
case “stands out,” by a preponderance of the
evidence, with respect to the strength of the
party’s position or the unreasonable manner
of litigating.

App. 55
EXHIBIT 11
STATEMENT OF STIPULATED FACTS
1.
Ameranth, Inc. (“Ameranth”) is a Delaware
corporation having a principal place of business in San
Diego, California.
2.
Domino’s Pizza, Inc. is a Delaware
corporation having a principal place of business in Ann
Arbor, MI.
3.
Domino’s Pizza, LLC is a Michigan limited
liability company having a principal place of business
in Ann Arbor, MI.
4.
The patent at issue, U.S. Patent No.
8,146,077 (“the ’077 Patent”), is titled “Information
Management and Synchronous Communications
System with Menu Generation, and Handwriting and
Voice Modification of Orders.”
5.
2019.

The ’077 Patent expires on September 21,

6.
The named inventors of the ’077 Patent are
Keith McNally, William Roof, and Richard Bergfeld.
7.
The named assignee of the ’077 Patent, as
listed on the patent, is Ameranth, Inc.
8.
On March 27, 2012, Ameranth sued Domino’s
for infringement of the ’077 Patent, immediately after
issuance of the patent.
9.
Ameranth asserts independent claims 1, 9,
and 13, and dependent claims 6 and 17 of the ’077
Patent against Domino’s.

App. 56
10.
Ameranth seeks a “reasonable royalty” as
damages. Ameranth does not seek any “lost profits” or
other damages.

App. 57

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
CASE NO. 11cv1810 DMS (WVG)
[Filed October 10, 2013]
_____________________________
IN RE: AMERANTH PATENT )
LITIGATION CASES,
)
)
_____________________________ )
ORDER (1) RESOLVING PARTIES’ JOINT
MOTION FOR DISCOVERY DISPUTE,
(2) RESOLVING PARTIES’ JOINT MOTION
REGARDING SERVICE OF AMENDED
INFRINGEMENT CONTENTIONS AND
(3) RESETTING DATES
[Docket Nos. 450, 455]
This case comes before the Court on the parties’
(1) Joint Motion for Determination of Discovery
Dispute [Docket No. 450] and (2) Joint Motion
Regarding Service of Amended Infringement
Contentions [Docket No. 455].
The first motion concerns Defendant QuikOrder’s
responses to Plaintiff’s interrogatories regarding source
code organization. Plaintiff served similar
interrogatories on other Defendants, and thus the
Court gave those parties an opportunity to file briefs on

App. 58
the issue, which some Defendants have done. The
Court also gave Plaintiff an opportunity to file a reply,
which it has done.
The subject interrogatories ask Defendants to
identify by name, purpose and location certain
“projects” within Defendants’ source codes that
correspond to the accused systems. Defendants objected
to the interrogatories on several grounds, and rely on
Federal Rule of Civil Procedure 33(d) in response.
Specifically, they assert the answers to Plaintiff’s
interrogatories may be found in their respective source
codes. The primary issue before the Court is whether
Defendants’ reliance on that Rule is sufficient or
further responses are necessary.
Federal Rule of Civil Procedure 33(d) states:
If the answer to an interrogatory may be
determined by examining, auditing, compiling,
abstracting, or summarizing a party’s business
records (including electronically stored
information), and if the burden of deriving or
ascertaining the answer will be substantially the
same for either party, the responding party may
answer by:
(1) specifying the records that must be reviewed,
in sufficient detail to enable the interrogating
party to locate and identify them as readily as
the responding party could; and
(2) giving the interrogating party a reasonable
opportunity to examine and audit the records
and to make copies, compilations, abstracts, or
summaries.

App. 59
Fed. R. Civ. P. 33(d). “A requesting party claiming an
inappropriate use of Rule 33(d) must ‘make a prima
facie showing that the use of Rule 33(d) is somehow
inadequate, whether because the information is not
fully contained in the documents or because it is too
difficult to extract.’” RSI Corp. v. Int’l Business
Machines Corp., No. 5:08-cv-3414 RMW, 2012 WL
3095396, at *1 (N.D. Cal. July 30, 2012) (quoting 7 J.
Moore, Moore’s Federal Practice § 33.105 (3d ed.
2012)). If the requesting party meets that showing,
“[t]he burden then shifts to the producing party to show
that: (1) a review of the documents will actually reveal
answers to the interrogatories; and (2) the burden of
deriving the answer is substantially the same for the
party serving the interrogatory as for the party served.”
Id. (citing 7 Moore’s).
Here, Plaintiff does not argue the information it
seeks is not contained in Defendant’s source codes.
Rather, it argues it will incur a “substantial burden” if
it is forced to review those source codes to discover the
requested information. However, “discovery by its very
nature is burdensome, and that especially holds true in
patent cases.” Digital Reg of Texas, LLC v. Adobe
Systems Inc., No. CV 12-01971-CW (KAW), 2013 WL
3361241, at *6 (N.D. Cal. July 3, 2013). That the task
of discovering the requested information is burdensome
does not mean it is too difficult for Plaintiff to perform.
Accordingly, the Court denies Plaintiff’s motion to
compel QuikOrder, and any other Defendants to which
similar interrogatories were sent, to provide further
responses to its interrogatories.

App. 60
With respect to the second motion, pursuant to a
July 26, 2013 Order issued by Magistrate Judge
Stormes, Plaintiff was to amend its preliminary
infringement contentions in four respects: (1) to provide
more specifics with respect to the doctrine of
equivalents, (2) to provide facts supporting its theory of
contributory infringement, (3) to state how the previous
versions of Defendants’ accused systems are the same
or reasonably similar to the charted version or provide
a separate chart for each accused version and (4) to
identify with specificity where in the accused system
the alleged infringement occurs and how the claim
elements are met. In that Order, Magistrate Judge
Stormes also ordered the parties to meet and confer
regarding (1) a schedule for the service of the amended
infringement contentions and (2) whether Plaintiff
should amend its infringement contentions as to
Defendants other than OpenTable, Wanderspot and
Best Western.
In response to that Order, the parties filed the Joint
Motion Regarding Service of Amended Infringement
Contentions. In the Joint Motion, Plaintiff stated it
could not meet the requirement set out in number (4)
above without first reviewing Defendants’ source codes.
It also argued that it should only have to amend its
infringement contentions as to OpenTable, Wanderspot
and Best Western. Defendants disputed their source
codes were necessary for Plaintiff to comply with
requirement number (4). They also asserted Plaintiff
should amend its infringement contentions as to all
Defendants, not just the three identified above.

App. 61
After the parties filed the Joint Motion, the case
was reassigned to the undersigned Judge. Pursuant to
a September 13, 2013 Order, the Court gave
Defendants who had not yet had an opportunity to be
heard on the Joint Motion an opportunity to file a brief
on the issues, and gave Plaintiff an opportunity to file
a response. Defendants Starbucks, Apple, Eventbrite,
Ticketfly and Ticketbiscuit each filed a separate brief
in which they argue they should not have to produce
their source codes for Plaintiff to amend its
infringement contentions. Plaintiff filed a consolidated
response.
After reviewing Magistrate Judge Stormes’s order,
the parties’ briefs, the record in this case and the
relevant authority, the Court agrees with Plaintiff that
Defendants should provide their source codes prior to
Plaintiff amending its infringement contentions. Some
Defendants (OpenTable, Papa John’s, GrubHub,
Domino’s, O-Web, Seamless, Pizza Hut and QuikOrder)
have already done so. Thus, Plaintiff can amend its
infringement contentions as to these Defendants right
away. As to the other Defendants, the Court orders as
follows:
1.
The other Defendants shall produce their
respective source codes to Plaintiff as follows:
a. Wanderspot and the Hotel Companies shall
provide their source codes on or before
October 25, 2013.
b. The Travel Aggregators shall provide their
source codes on or before November 8, 2013.

App. 62
c. The Ticketing Companies shall provide their
source codes on or before November 22,
2013.
d. The POS Companies shall provide their
source codes on or before December 6, 2013.
e. All other Defendants, including Starbucks,
Eventbrite, Ticketfly, Ticketbiscuit and
Apple, shall provide their source codes on or
before December 20, 2013.
2.
Plaintiff shall provide its amended, or initial,
infringement contentions as follows:1
a. For the Pizza Companies and Providers, on
or before October 25, 2013.
b. For the Food Ordering Companies, on or
before November 8, 2013.
c. For the Reservations Companies, on or before
November 22, 2013.
d. For the Hotel Companies, on or before
December 6, 2013.
e. For the Travel Aggregators, on or before on
or before December 20, 2013.
f. For the Ticketing Companies, on or before
January 3, 2014.

1

The following list includes all Defendants, to the extent they
believe Plaintiff’s infringement contentions are inadequate. If any
Defendant is satisfied with Plaintiff’s infringement contentions,
Plaintiff need not amend its contentions as to those Defendants.

App. 63
g. For the POS Companies, on or before
January 17, 2014.
h. For all other Defendants listed in 1.e. above,
on or before January 31, 2014.
Plaintiff is directed to select no more than five (5)
claims from each patent to assert against all
Defendants for a maximum of twenty (20) claims.
Plaintiff may assert additional claims at this time only
with leave of Court. Plaintiff’s amended infringement
contentions shall consist of one representative version
of each Defendant’s accused system for the five selected
claims of each patent asserted against that Defendant.2
If Plaintiff asserts indirect infringement (contributory
or inducement) by a Defendant, Plaintiff shall provide
as part of its infringement contentions an example of
how the Defendant indirectly infringes, including the
identity of the direct infringer and factual basis for the
Defendant’s intent.
3.
Plaintiff may provide infringement contentions
for additional accused systems or versions following the
issuance of the claim construction order as provided in
Patent L.R. 3.6(a).
4.
No later than March 31, 2014, Defendants shall
serve invalidity contentions pursuant to Patent L.R. 3.3
and produce documents as required by Patent L.R. 3.4.
Defendants shall jointly provide a list of prior art they
contend individually or in combination invalidates the
patents at issue. Defendants shall jointly serve one set
of initial invalidity contentions on Plaintiff in
2

This limitation moots requirement (3) of Judge Stormes’s order.

App. 64
accordance with the format set forth in the local rules.
The contentions shall be directed at the claims Plaintiff
selects for its infringement contentions. Defendants’
production of information pursuant to Local Rule
3.4(a), setting forth the technical specifications and
other information for their accused system is limited to
the system identified in Plaintiff’s initial infringement
contentions. Defendants’ contentions shall include all,
if any, prior art they contend invalidates a claim based
on anticipation. Defendants shall include no more than
five separate prior art combinations they contend
invalidate based on obviousness. For the latter
purpose, Defendants may assert additional prior art
references or combinations at this time only with leave
of Court.
5.
Defendants may assert additional invalidity
contentions following issuance of the claim construction
order as provided in Patent L.R. 3.6(b).
6.
Counsel for all parties shall meet and confer and
select no more than ten (10) claim terms or phrases
from each patent for construction.
7.
On or before April 21, 2014, the parties shall
exchange preliminary claim constructions pursuant to
Patent L.R. 4.1(a) and identify extrinsic evidence as
required by Patent L.R. 4.1(b). On or before May 12,
2014, the parties shall exchange responsive claim
constructions pursuant to Patent L.R. 4.1(c) and
identify extrinsic evidence as required by Patent L.R.
4.1(d). In the interests of efficiency and reducing the
cost of litigation, Defendants are encouraged to provide
an omnibus preliminary claim construction and an
omnibus response to Plaintiff.

App. 65
8.
On or before July 7, 2014, the parties shall
complete and file a joint claim construction chart, joint
claim construction worksheet, and joint hearing
statement pursuant to Patent L.R. 4.2.
9.
All discovery intended for use in the claim
construction hearing must be completed no later than
August 18, 2014. See Patent L.R. 4.3.
10.
Defendants shall file one omnibus claim
construction brief and response. To the extent any
Defendant wishes to present an argument specific to its
position, it may do so in a supplemental brief or
response not to exceed five (5) pages. No later than
September 22, 2014, the parties shall simultaneously
file their opening claim construction briefs. See Patent
L.R. 4.4(a). No later than October 6, 2014, the parties
shall simultaneously file their responsive claim
construction briefs. See Patent L.R. 4.4(b). Each side’s
opening and responsive brief shall cover all the claim
terms sought to be construed and shall not exceed 35
pages in length.
11.
On October 9, 2014, at 1:30 p.m. the Court will
hold a joint telephonic conference to discuss the parties’
intended presentations at the claim construction
hearing, including any tutorial and testimony.
12.
The claim construction hearing will be held on
November 3, 2014, at 9:00 a.m. See Patent L.R. 4.5.
The Court shall hold a joint case management
conference at the end of the claim construction hearing.
Counsel shall come prepared to discuss trial dates and
case management dates leading up to trial.
IT IS SO ORDERED.

App. 66
DATED: October 10, 2013
/s/Dana M. Sabra
HON. DANA M. SABRAW
United States District Judge

App. 67

APPENDIX E
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1141, 2019-1144
[Filed January 6, 2020]
______________________________________
AMERANTH, INC.,
)
Plaintiff-Appellant
)
)
v.
)
)
DOMINO’S PIZZA, LLC,
)
DOMINO’S PIZZA, INC.,
)
Defendants-Appellees
)
)
PAPA JOHN’S USA, INC.,
)
OPENTABLE, INC., GRUBHUB, INC., )
SEAMLESS NORTH AMERICA, LLC,
)
O-WEB TECHNOLOGIES LTD.,
)
HOTELS.COM, L.P., STUBHUB, INC., )
TICKETMASTER, LLC, LIVE NATION )
ENTERTAINMENT, INC.,
)
TRAVELOCITY.COM LP, HOTEL
)
TONIGHT, INC., ORBITZ, LLC,
)
EXPEDIA, INC., FANDANGO, INC.,
)
HOTWIRE, INC., KAYAK SOFTWARE )
CORPORATION, EMN8, INC., HILTON )
INTERNATIONAL CO., HILTON
)

App. 68
RESORTS CORPORATION, HILTON
WORLDWIDE, INC., USABLENET,
INC., STARWOOD HOTELS &
RESORTS WORLDWIDE INC., MOBO
SYSTEMS, INC., AGILYSYS, INC.,
ATX INNOVATION, INC., BEST
WESTERN INTERNATIONAL, INC.,
HYATT CORPORATION, ORDR.IN,
INC., NAAMA NETWORKS, INC.,
MARRIOTT HOTEL SERVICES, INC.,
MARRIOTT INTERNATIONAL, INC.,
RITZ CARLTON HOTEL COMPANY,
LLC, RENAISSANCE HOTEL
OPERATING COMPANY, APPLE, INC.,
TICKETBISCUIT, LLC, EVENTBRITE,
INC., TICKETFLY, INC., STARBUCKS
CORPORATION, IPDEV CO., ORACLE
CORPORATION,
Defendants
______________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeals from the United States District Court for
the Southern District of California in Nos. 3:11-cv01810-DMS-WVG, 3:12-cv-00733-DMS-WVG, Judge
Dana M. Sabraw.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________

App. 69
Before PROST, Chief Judge, NEWMAN, PLAGER,*
LOURIE, DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Ameranth, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for en banc rehearing is denied.
The mandate of the court will issue on January 13,
2020.
FOR THE COURT
January 6, 2020
Date

*

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Plager participated only in the decision on the
petition for panel rehearing.

